SUPREME COURT OF THE UNITED STATES
No. 21X

T.E.L., AMINOR,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.
X

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 2,311 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.

Executed on this 20th day of August, 2021.

Marianna Buffolino
Sworn to and subscribed before me this 20th day of August, 2021.

Mariana Braylovskiy
Notary Public State of New York
No. 01BR6004935
Qualified in Richmond County
Commission Expires March 30, 2022
#306752

